          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Inspection Report
Alleged Violations of Executive Order
12333, U.S. Intelligence Activities –
Improper Retention and Dissemination
of Information on U.S. Persons




DOE/IG-0852                         July 2011
                                  Department of Energy
                                     Washington, DC 20585


                                           July 1, 2011

MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "Alleged Violations of
                          Executive Order 12333, U.S. Intelligence Activities–Improper
                          Retention and Dissemination of Information on U.S. Persons"

BACKGROUND

The collection, retention and dissemination of intelligence data involving U.S. Persons is
generally governed by Presidential Executive Order (E.O.) 12333, United States Intelligence
Activities, July 2008, as amended. U.S. Persons include United States citizens, aliens known to
be permanent resident aliens, or companies incorporated in the United States. The E.O., which
emphasizes protecting the legal rights of all U.S. Persons, authorizes Federal entities to collect
information to protect the Nation against threats of espionage, terrorism and the use of weapons
of mass destruction.

Within the Department of Energy, the Office of Intelligence and Counterintelligence (CI) is
responsible for collecting, reviewing, analyzing, investigating and acting on concerns ranging
from foreign intelligence to potential and actual terrorist activities. As part of its process, CI
established what it termed "SPOT Reports" as an urgent communications system to capture
intelligence data of national-level significance (emphasis supplied). The stated purpose was to:
(1) improve the sharing of such information; and, (2) enhance incident awareness. The
Department's procedures regarding treatment of information it collects on U.S. Persons require
that unless a foreign nexus can be established, such information is not to be retained beyond
established timeframes.

The Office of Inspector General received an allegation that the rights of U.S. Persons had been
violated during the course of current Department intelligence gathering efforts. In response, we
initiated a review of the facts and circumstances surrounding the allegation.

RESULTS OF INSPECTION

We substantiated aspects of the allegation. While we took no exception to collection techniques,
we found that the Department had not always adequately managed SPOT Reports. We
discovered that the dissemination, review, retention and deletion of SPOT Reports containing
information on U.S. Persons did not always comport with the Department's Procedures for
Intelligence Activities, October 1992, and its Counterintelligence Directorate's
Counterintelligence Professional Guide, March 2009. Based on the 28 SPOT Reports available
to us, we examined and reviewed CI practices. We found that:
         Even though the primary purpose of SPOT Reports was to communicate critical,
         national level intelligence matters, reviews of reports developed by field intelligence
         officers were either not timely or, in some cases, were never performed;

         Action was not always taken to determine whether a foreign nexus existed regarding
         SPOT Reports containing information on U.S. Persons;

         Some SPOT Reports were sometimes retained beyond the maximum one-year action or
         retention deadline;

         Officials were unable to affirmatively track and monitor SPOT Reports because they
         did not maintain a required dissemination list; and,

         Annual purges conducted to delete SPOT Reports that were no longer needed were not
         completely effective.

CI officials informed us that as a result of our inspection they had discontinued the use of SPOT
Reports on U.S. Persons as of October 2010. These officials also indicated that effective January
2011, CI discontinued the use of all SPOT Reports, including those involving cyber-related
events. These actions, if sustained, should address most of the problems we observed.
Additional attention, however, is necessary to ensure that retained information is completely and
timely purged and that CI staff is provided additional guidance on the retention of U.S. Persons
information. The report contains two recommendations in this regard.

                                    Review of SPOT Reports

Our review revealed that, in some cases, CI officials never reviewed information contained in
several of the SPOT Reports we reviewed. Even in those instances when the information was
reviewed, the analysis was not timely. The CI Professional Guide required that these reports be
promptly reviewed to determine if a foreign nexus existed and/or whether investigative action
was necessary. SPOT Reports were to be transmitted to Headquarters within 24 hours of
detecting or being notified of a major case, threat or incident. Upon receipt, Headquarters was
required to acknowledge and provide any necessary guidance to senior CI officials within seven
days after receiving the SPOT Reports. The CI Professional Guide also specified that follow-on
update reporting from the CI Field office was to occur within seven days and that the follow-on
reporting would continue until no longer required by Headquarters. In spite of these very
specific timelines, some SPOT Reports were never reviewed, and, as noted, the review process,
even when initiated, was not carried out on a timely basis. In response to our inquires, CI
officials acknowledged that they failed to promptly complete required reviews of SPOT Reports
prepared by Field CI officers.

                                Control and Use of SPOT Reports

As noted in CI's procedures, the Department adopted SPOT Reports as a means of quickly
disseminating and acting on items of critical intelligence. As an aid in tracking and controlling
SPOT Reports, CI procedures required the maintenance of a dissemination list for all reports.


                                                 2
However, during our inspection, we determined that CI officials had not properly tracked and
monitored all SPOT Reports and that they had not maintained a dissemination list. Due to the
absence of the dissemination list, CI officials could not determine, on a real time basis, the total
number of SPOT Reports for the period encompassing calendar years 2006 through 2010. Based
on subsequent data calls to each of its Field Intelligence Officers, CI officials later told us that its
Field Offices generated 416 SPOT Reports from July 2006 to January 2011. While CI could not
furnish all of the reports because of the passage of time and various actions to purge records, we
were able to gather and review 28 SPOT Reports.

Our testing of 28 SPOT Reports revealed that 12 reports (almost 43 percent) contained
information on U.S. Persons. Of the 12 reports, 10 appeared to relate only to routine or general
security matters. Two reports provided a foreign nexus. In our judgment, the use of SPOT
Reports to capture routine security matters was inconsistent with the underlying purpose of the
SPOT Report process as established by the Department, namely to report on issues related to
urgent national-level intelligence matters.

                              Retention and Deletion of SPOT Reports

CI's Professional Guide indicated that information on U.S. Persons collected during the course of
an inquiry that is never elevated to an investigation may be retained temporarily for up to one
year to determine whether it met the foreign nexus requirements and/or whether further
investigation was needed. However, officials were required to immediately delete information at
any time during that year if they concluded that there was no indication of foreign activity or
contact and/or an investigative case is not to be opened. The Professional Guide also provided
for an annual review designed to purge all information on U.S. Persons that should not have been
maintained. The guidance further explained that CI should only retain information from the
SPOT Reports documenting the actual referral, generic activity and outcome of the inquiry, but
no identifying information on U.S. Persons.

We found, however, that processes intended to ensure that information on U.S. Persons
contained in SPOT Reports was completely purged when no longer needed were not always
effective. Specifically, we determined that SPOT Reports lingered on servers and backup tapes
even after routine annual purges were conducted. SPOT Reports, some containing information
on U.S. Persons, were reportedly purged by the Field offices as a part of a pre-established annual
process or sooner if they were determined not to be needed. However, CI officials were able to
retrieve specific reports that they told us had been deleted during the annual purge. In our view,
this confirmed that the annual purges were not entirely effective in eliminating data retained on
U.S. Persons.

We determined that certain other reports were retained because Field offices assumed that SPOT
Reports in the intelligence information system were being tracked and completely deleted by
Headquarters officials, while Headquarters officials believed that those requirements were being
monitored and accomplished by the Field offices. In addition, CI officials acknowledged that
they retained SPOT Reports locally in e-mail folders, spreadsheets and/or databases.




                                                   3
IMPACT

While trying to determine the underlying cause of the problems with review, retention and
dissemination of SPOT Reports, we found that some CI officials were not fully conversant with
laws, regulations, executive orders and procedures concerning retention of information gathered
on U.S. Persons. Current CI management acknowledged that there was some lingering
discomfort with the SPOT Report process; however, due to a number of pressing issues,
management was unable to address the situation prior to our inspection. The failure to promptly
review SPOT reports and take appropriate follow-on action increases the risk that the
Department may improperly retain information on U.S. Persons. In addition, delay in reviewing
and acting on information contained in such reports increased the risk that important
intelligence-related events may have gone unnoticed; although, no such matter came to our
attention during the inspection.

RECOMMENDATIONS

To help improve the purge/deletion process and ensure that information on U.S. Persons that is
not needed is completely and finally deleted, we recommend that the Director, Office of
Intelligence and Counterintelligence, take immediate action to:

    1. Ensure all retrievable SPOT Reports that contained information on U.S. Persons that are
       no longer needed are promptly deleted from all electronic media and paper files; and,

    2. As appropriate, provide staff with additional guidance or clarify policies regarding
       restrictions of the use and retention of information on U.S. Persons.

MANAGEMENT AND INSPECTOR COMMENTS

The Department's Office of Intelligence and Counterintelligence concurred with the report's
recommendations. We consider management's comments responsive to our recommendations.
Management comments are included in their entirety in Attachment 3.
Attachments

cc: Deputy Secretary
    Associate Deputy Secretary
    Chief of Staff
    Director, Office of Intelligence and Counterintelligence
    Acting General Counsel




                                                4
                                                                                     Attachment 1

                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

Determine whether Executive Order 12333 and/or related procedures were violated by
Counterintelligence (CI) officials and/or staff at multiple Department of Energy (Department)
locations. Specifically, it was alleged that CI officials retained and disseminated information on
U.S. Persons via SPOT Reports without a foreign nexus.

SCOPE

We conducted our inspection between October 2010 and March 2011. This allegation-based
inspection focused on 8 of the 18 CI Field Office locations:


       Washington Field Office (WFO), Washington, DC

       Oak Ridge Field Office (ORFO), Tennessee;

       Kansas City Field Office (KCFO), Missouri;

       Sandia Field Office (SFO), located in California and New Mexico;

       Lawrence Livermore Field Office (LLFO), California;

       Lawrence Berkley Field Office (LBFO), California;

       Albuquerque Field Office (AFO), New Mexico; and,

       Pantex Field Office (PFO), Texas.

METHODOLOGY

To accomplish the objective, we interviewed 27 Department CI officials, Federal and
contractors, from 8 of the Field offices reviewed. We also reviewed 28 subject SPOT Reports
that were referenced by the complainant or was developed during the course of our review.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency's "Quality Standards for Inspection and Evaluation," January 2011.

We held an exit conference with management on May 25, 2011.




                                                 5
                                                                                    Attachment 2

                              PRIOR INSPECTION REPORTS


The following Department of Energy (Department), Office of Inspector General, reports are
related to the handling of information on U.S. Persons and Foreign Intelligence Surveillance Act
policies and procedures concerning tracking and controlling of Federal Bureau of Investigation
cases by the Office of Intelligence and Counterintelligence (IN) Directorate:

       Selected Aspects of the Department of Energy's Activities Involving the Foreign
       Intelligence Surveillance Act (INS-L-09-05, May 2009). We initiated an inspection of
       selected aspects of the IN support in providing analytical support to the Federal Bureau of
       Investigation (FBI) concerning an information collection request under the Foreign
       Intelligence Surveillance Act (FISA) of 1978, as amended on July 10, 2008. We found
       that one of the four FISA cases the FBI referred for analysis was not completed in a
       timely manner and IN management was not aware of this situation. We also found that
       IN did not have written procedures for processing FISA cases and lacked any IN-wide
       process for tracking and following up on FISA cases. This likely was at least a
       contributing factor to management not being aware that IN's analysis of the above case
       was not handled in a timely manner.

       Inspection of Intelligence Oversight Activities at Selected Field Sites (INS-O-04-01,
       August 2004). The objective of this inspection was to determine if Federal and
       contractor personnel affiliated with intelligence and counterintelligence activities at
       selected Department Field sites were in compliance with pertinent policies and
       procedures regarding intelligence activities. We concluded that the Federal and
       contractor personnel at those sites were generally in compliance with pertinent
       Department policies and procedures for intelligence activities. However, we found that
       only 4 of 29 intelligence and counterintelligence analysts we interviewed from 2 sites
       could accurately define a "U.S. Person," a concept key to the operation of Executive
       Order (E.O.) 12333; in several instances, not all records were completely reviewed by
       analysts to ensure adherence with retention restrictions outlined in E.O. 12333; and, none
       of the analysts we interviewed at two sites could correctly describe the process pursuant
       to the Department of Energy Procedures for Intelligence Activities for reporting conduct
       that may violate E.O. 12333.




                                                6
                      Attachment 3
MANAGEMENT COMMENTS




         7
                                                                    IG Report No. DOE/IG-0852

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
